BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae Speech First, Inc.
Supporting Petitioners in 20-1066, Ashlyn Hoggard v.
Ron Rhodes, et al., was sent via Next Day Service to
the U.S. Supreme Court, and via Next Day Service to
the following parties listed below, this 8th day of
March, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adfle gal. org

Counsel for Petitioner
David C. Frederick
Kellogg, Hansen, Todd, Figel & Frederick, P.L.L.C.
1615 M Street, NW, Suite 400
Washington, DC 20036-3209
(202) 326- 7900
dfrederick@kellogghansen.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

William S. Consovoy
Counsel of Record
J. Michael Connolly
Cameron T. Norris
Tiffany Bates
Antonin Scalia Law School Supreme Court Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 8, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

\J

